No.

In The
Supreme Court of the United States of America
MICHAEL RAMON OCHOA,
Petitioner, pro se,
v.
Dr. Arthur Levine, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE
I declare under penalty of perjury that the foregoing has been produced in
compliance with Rule 33.1(h) regarding word limitations. There are 944 words in the
petition excluding the parts of the petition that are exempt by Supreme Court Rule
33.1(d).
The original version of this petition was produced and submitted per Rule 33.2.
That version was received and time-stamped by the Assistant Clerk of the Court on
11-05-19. Clerk Barnes interpreted an order at 14-8625 Ochoa v. Rubin as also applying
to this case and directed the petition to be re-submitted per Rule 33.1. The text of this
petition is identical to that except for indexing and numeration. The lengthy Root
Facts were only reproduced at 134/326. Unfortunately, the symmetry of the original
was disturbed by that process. Any discrepancies or errors should be interpreted in
favor of the original which can be best seen here:
*>

https://www.academia.edu/
40869294/ll-07-19_Petition_for_Writ_of_Certiorari_135_327
I declare mr

y/f perjury that the foregoing is true and correct.

Michael Ramon Ochoa,
Petitioner, pro se/
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com

/ fi£cgn7eo

•/ °fC ‘ 3 2019

Date: November 26, 2019
i

ri

